March 4, 2021

VIA ELECTRONIC FILING

Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Peyman Pakdel, et ux. v. City and County of San Francisco, California, et al.,
Case No. 20-1212

Dear Clerk of the Court:
I represent Petitioners Peyman Pakdel and Sima Chegini in the above-referenced
matter.
In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the United States,
Petitioners hereby grant blanket consent to the filing of amicus curiae briefs in this
matter.
Thank you.
Sincerely,

Jeffrey W. McCoy
Counsel of Record for Petitioners
cc: Mr. Dennis J. Herrera, cityattorney@sfcityatty.org
Ms. Kristen A. Jensen, kristen.jensen@sfcityatty.org
Mr. Christopher T. Tom, christopher.tom@sfcityatty.org

